                                                NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: A1207004 7                                                                    Page 1 of 1


          The complainant alleged a unique phrase and idea were first presented in a
          proposal he submitted to NSF 1 and a manuscript he submitted for publication.
          Shortly after the NSF proposal was reviewed, but prior to the publication of his
          manuscript, the complainant noted his unique phrase appeared in very recent
          papers by a research group. 2 Thus, the complainant suspected the subjects may
          have obtained the idea and phrase from reviewing his proposal.
          We reviewed the list of reviewers for the complainant's proposal and none of the
          reviewers were authors of the papers. None of the reviewers were at the same
          institution as the subjects. Finally, we checked two reviewers at institutions near
          the subjects' institution, but found no connections. We conclude the allegation is
          not substantiated. Accordingly, this case is closed with no further action taken.




               1[redacted]
               2[redacted]
              [redacted]
              The complainant also mentioned this group created a Wikipedia page ([redacted]). The page was
          created by [redacted].




NSF OIG Form 2 (I 1102)
